<html>
<title> - REAUTHORIZATION OF THE U.S. DEPARTMENT OF TRANSPORTATION'S PIPELINE SAFETY PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]













  REAUTHORIZATION OF THE U.S. DEPARTMENT OF TRANSPORTATION'S PIPELINE 
                             SAFETY PROGRAM

=======================================================================

                                (114-35)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       RAILROADS, PIPELINES, AND
                          HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-874 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois

                                  (ii)

  


     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                   JEFF DENHAM, California, Chairman

JOHN J. DUNCAN, Jr., Tennessee       MICHAEL E. CAPUANO, Massachusetts
JOHN L. MICA, Florida                CORRINE BROWN, Florida
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
CANDICE S. MILLER, Michigan          JERROLD NADLER, New York
LOU BARLETTA, Pennsylvania           ELIJAH E. CUMMINGS, Maryland
BLAKE FARENTHOLD, Texas              RICK LARSEN, Washington
RICHARD L. HANNA, New York           STEVE COHEN, Tennessee
DANIEL WEBSTER, Florida              ALBIO SIRES, New Jersey
SCOTT PERRY, Pennsylvania            RICHARD M. NOLAN, Minnesota
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut
JOHN KATKO, New York                 GRACE F. NAPOLITANO, California
BRIAN BABIN, Texas                   JANICE HAHN, California
CRESENT HARDY, Nevada                PETER A. DeFAZIO, Oregon (Ex 
MIMI WALTERS, California             Officio)
LEE M. ZELDIN, New York
MIKE BOST, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)



































                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               WITNESSES
                                Panel 1

Hon. Stephen Knight, a Representative in Congress from the State 
  of California, testimony.......................................     5
Hon. Brad Sherman, a Representative in Congress from the State of 
  California, testimony..........................................     5
Hon. Jackie Speier, a Representative in Congress from the State 
  of California, testimony.......................................     5

                                Panel 2

Hon. Marie Therese Dominguez, Administrator, Pipeline and 
  Hazardous Materials Safety Administration:

    Testimony....................................................     9
    Prepared statement...........................................    38
    Responses to questions for the record from subcommittee 
      majority...................................................    54
    Responses to questions for the record from subcommittee 
      minority...................................................    58
Andrew J. Black, President and CEO, Association of Oil Pipe 
  Lines:

    Testimony....................................................     9
    Prepared statement...........................................    64
Donald F. Santa, President and CEO, Interstate Natural Gas 
  Association of America:

    Testimony....................................................     9
    Prepared statement...........................................    68
Cheryl Campbell, Senior Vice President, Gas, Xcel Energy, on 
  behalf of the American Gas Association:

    Testimony....................................................     9
    Prepared statement...........................................    76
    Responses to questions for the record from subcommittee 
      majority...................................................   100
Carl Weimer, Executive Director, Pipeline Safety Trust:

    Testimony....................................................     9
    Prepared statement...........................................   101
    Responses to questions for the record from subcommittee 
      minority...................................................   115

                       SUBMISSIONS FOR THE RECORD

Written testimony of the American Public Gas Association, 
  submitted by Hon. Bill Shuster, a Representative in Congress 
  from the State of Pennsylvania.................................   122
Response from the American Gas Association to the request for 
  information from Hon. John L. Mica, a Representative in 
  Congress from the State of Florida.............................   130

                        ADDITIONS TO THE RECORD

Letter of May 31, 2016, from H. ``Butch'' Browning, President, 
  National Association of State Fire Marshals, to Chairman Jeff 
  Denham and Ranking Member Michael E. Capuano, Subcommittee on 
  Railroads, Pipelines, and Hazardous Materials..................   134

Letter of May 24, 2016, from Kathy Mayo, Executive Director, 
  Pipeline Open Data Standard (PODS) Association, to Chairman 
  Bill Shuster and Ranking Member Peter A. DeFazio, Committee on 
  Transportation and Infrastructure..............................   137
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
  REAUTHORIZATION OF THE U.S. DEPARTMENT OF TRANSPORTATION'S PIPELINE 
                             SAFETY PROGRAM

                              ----------                              


                      THURSDAY, FEBRUARY 25, 2016

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2167, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The subcommittee will come to order.
    Good morning and welcome to the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials.
    Our hearing today will focus on the reauthorization of the 
Department of Transportation's pipeline safety program, which 
is administered by the Pipeline and Hazardous Materials Safety 
Administration, PHMSA. We are glad that they are here with us 
this morning.
    The United States has the largest network of energy 
pipelines in the entire world, and they power nearly every 
facet of our daily activities. In order to ensure that 
pipelines continue to be the safest and most cost-effective 
means to transport energy products, diligent oversight of DOT's 
[Department of Transportation's] pipeline safety programs is a 
top priority.
    Pipelines account for the transportation of 64 percent of 
the energy commodities consumed in the United States. Pipeline 
safety is carried out in a partnership between PHMSA, State 
regulators, and the private sector.
    Over the past decade, private entities and the Government 
have taken many steps to ensure the safety of U.S. pipelines. 
Congress enacted the 2011 pipeline safety bill to strengthen 
our efforts, and we have been carefully monitoring DOT's 
progress of completing the remaining mandates from the 2011 
act.
    This hearing follows two hearings and a roundtable we had 
last year on these pipeline safety issues.
    The 2011 law included 42 congressional mandates, of which 
only 26 are complete. Although PHMSA has released a major 
rulemaking on hazardous liquids requirements, it has yet to 
produce several other important rulemakings. Today we will hear 
from PHMSA and other stakeholders on where all the 2011 act 
mandates are.
    We will also look towards the next pipeline reauthorization 
bill, which is a top priority of ours this year. We want to 
ensure that this legislation provides regulatory certainty for 
our citizens, the safety of our communities, and for industry 
stakeholders.
    The bill is going to be a bipartisan bill, and we are 
looking forward to continuing to work with our colleagues from 
the Committee on Energy and Commerce as we move a bill forward.
    I look forward to hearing from stakeholders on how we can 
build on the 2011 act and what the 2016 reauthorization needs 
to accomplish.
    I also look forward to hearing how industry is being 
proactive in its own safety initiatives to ensure best 
practices for inspections, detecting leaks, and other important 
safety initiatives.
    In closing I want to thank our witnesses for coming today 
to explore these issues concerning pipeline safety.
    I now recognize Ranking Member Mike Capuano from 
Massachusetts for any opening statement he may have.
    Mr. Capuano. Thank you, Mr. Chairman.
    Yes, what he said. I pretty much agree with all of it, and 
I especially like the idea of getting a bill out this year. I 
think we can make a bipartisan bill. I am looking forward to 
it, and it will be wonderful to have.
    I look forward to hearing our panelists. I particularly 
welcome my colleagues. I know that each of you have important 
issues in your districts and that is why you are here, and I 
look forward to hearing your testimony, and thank you all for 
being here.
    Mr. Denham. Thank you.
    I will now call on the chairman of the full committee, Mr. 
Shuster, who also authored the 2011 act which we are talking 
about here today.
    Mr. Shuster. Thank you very much, Mr. Chairman. Thank you 
and for Mr. Capuano for holding this hearing today.
    I want to welcome our colleagues, which I know each of you 
have great interest in pipeline safety and hazmat issues that 
we will deal with on this legislation. So thank you for being 
here.
    And also I want to welcome Administrator Dominguez for her 
first appearance before the subcommittee. Welcome.
    Pipeline safety reauthorization is one of the priorities of 
the committee and certainly of this subcommittee, and I look 
forward to moving it forward with Chairman Denham and Ranking 
Member Capuano.
    As mentioned, I was the chairman in 2011 when we passed the 
last pipeline safety reauthorization. We were also working with 
our colleagues on the Energy and Commerce Committee to develop 
this important piece of legislation.
    In the last bill we wanted risk-based, data-driven 
processes at PHMSA. The 2011 act included a number of 
significant mandates, but PHMSA is behind in completing them. 
However, these are complex issues. I want the agency to get the 
rulemakings right, and I am glad to see that PHMSA did release 
one of the major rulemakings on hazardous liquids late last 
year, and I would like to hear from them on other items and 
where they stand.
    The work on this reauthorization needs to make sure that 
PHMSA can stay focused on closing out the 2011 act. I 
understand that PHMSA is currently undergoing reorganization to 
become more data driven in its rulemaking procedures, which is 
positive, and I hope to hear how that reorganization will help 
the agency carry out pipeline safety mission and help PHMSA do 
a more effective job overseeing pipeline safety.
    I finally would like to ask for unanimous consent to enter 
into the record the written testimony from the American Public 
Gas Association, which represents many small communities and 
gas distribution centers.
    I again welcome my colleagues and also the Administrator.
    Without objection?
    Mr. Denham. Without objection.
    [The written statement of the American Public Gas 
Association is on pages 122-129.]
    Mr. Shuster. And I yield back. Thank you, Mr. Chairman.
    Mr. Denham. I now call the ranking member of the full 
committee, Mr. DeFazio, for any opening statement he may have.
    Mr. DeFazio. Thank you, Mr. Chairman.
    According to PHMSA, the number of significant incidents 
involving gas and hazardous liquid pipelines has increased 
slightly since 2010, but you know, pipelines remain one of the 
safest modes of transport: on average, 288 significant pipeline 
incidents a year, 13 fatalities, 66 injuries.
    Those numbers are low, but you know, PHMSA set a goal of 
zero. I remember when we had a visionary leader at DOT about 20 
years ago who talked about zero fatalities in aviation. People 
thought that was not achievable. Well, we have now achieved it. 
So I would hope that we can get to the same place with PHMSA in 
terms of serious incidents, and particularly in terms of any 
future fatalities or serious injuries.
    Obviously one incident can cause catastrophic damage. You 
know, the Enbridge pipeline failure in Marshall, Michigan, 
spilled nearly 1 million gallons of heavy crude--oh, wait a 
minute, sorry, they reclassified it as tar sand so they could 
save money on taxes--into the Kalamazoo River.
    It has been 6 years since that spill, and yet 80,000 
gallons of heavy crude tar sands remain imbedded in the 
riverbed along shorelines and not recoverable. That kind of 
thing is inexcusable. It also went on for quite a period of 
time because of problems with detection and shutoff, which are 
issues that are pending with PHMSA.
    We had the San Bruno event the same year, which killed 
eight people. That was absolutely an extraordinary incident.
    So those incidents drove us here to pass the 2011 pipeline 
safety bill. Unfortunately, many of the mandates in that bill 
have not been implemented by PHMSA: the automatic shutoffs, 
which I mentioned a moment ago; leak detection, which I 
mentioned a moment ago; excess flow valves; the expansion of 
integrity management requirements beyond high consequence 
areas.
    They only issued a--I just hate this stuff--a notice of 
proposed rulemaking on October 13th, 2015, on the hazardous 
liquids rule, and that took a year to get out of OMB [Office of 
Management and Budget]. I am working with our colleague, Jason 
Chaffetz, on an OMB reform bill. They are a major problem in 
many, many areas of Government.
    But, you know, nothing has been issued on gas transmission 
5 years after enactment. I do not know whether to blame OMB, 
the Secretary or perhaps the prior leadership at PHMSA because 
the agency has had a history of dragging its feet.
    I think the new Administrator is a breath of fresh air in 
that agency.
    Unfortunately, the Senate took the wrong approach on this 
issue. They told PHMSA it could not initiate any new rulemaking 
until all of the outstanding pipeline mandates are completed 
unless the Secretary of Transportation certifies to Congress 
there is a significant need to move forward.
    That sounds an awful lot like the tombstone rule that we 
imbedded in the FAA [Federal Aviation Administration] bill a 
couple of weeks ago precluding any action to regulate lithium 
batteries until there is another fatal accident.
    So you know, we should not be tying their hands like that, 
and that is not the way to go forward. You know, it applies not 
only to pipelines but to all their activities, which is just 
extraordinary, but you know, the Senate is known for being 
sloppy in legislating. Perhaps they just meant pipelines, but 
they ended up restricting everything.
    So I believe, you know, we have an opportunity on this side 
to do a lot better. We should give them the opportunity to 
finish what they have been tasked to do. I do not think we 
should add any new rulemaking mandates in the reauthorization 
bill.
    I would like to see us put some things in the bill that 
could actually help them get the job done and the goals and the 
objectives and the mandates that we put forward in 2011. Also I 
think we could give them authority for emergency order 
authority, which most other agencies which act for public 
safety do have. They don't if there is an industrywide issue, 
you know, just like the crude by rail issue.
    So I think there are things we can do to make the agency 
work better, but I think the Senate really went down the wrong 
path, and I would hope that we do not choose to follow the 
Senate in this matter.
    Thank you, Mr. Chairman.
    Mr. Denham. Thank you.
    We have two panels today. First of all, my esteemed 
colleagues from the great State of California, we welcome them, 
Steve Knight, Brad Sherman and Jackie Speier.
    After their testimony we will have the second panel, which 
is the Honorable Marie Therese Dominguez, Administrator of 
PHMSA; Mr. Andrew Black, president and CEO of the Association 
of Oil Pipe Lines; Mr. Donald Santa, president and CEO, 
Interstate Natural Gas Association of America; Ms. Cheryl 
Campbell, senior vice president of Gas for Xcel Energy; and Mr. 
Carl Weimer, executive director of the Pipeline Safety Trust.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    Without objection, so ordered.
    Since your testimony has been part of the record, the 
subcommittee would request that you keep your oral testimonies 
to less than 5 minutes.
    Mr. Knight, welcome. You may proceed.

TESTIMONY OF HON. STEPHEN KNIGHT, A REPRESENTATIVE IN CONGRESS 
      FROM THE STATE OF CALIFORNIA; HON. BRAD SHERMAN, A 
 REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA; AND 
HON. JACKIE SPEIER, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
                         OF CALIFORNIA

    Mr. Knight. Thank you, Mr. Chair.
    I want to thank the committee for allowing this to happen 
today.
    You know, on October 23rd, an incident, a national incident 
happened in my district. It happened to a community where my 
esteemed colleague lives. It is in the Aliso Canyon gas 
facility in Porter Ranch, which is in the northern tip of Los 
Angeles City.
    We had a leak there that is of a proportion that we have 
not seen very often in our lifetimes. An amount of gas leaked 
out of this facility that would fill the Empire State Building 
every day.
    This went on for about 4 months until just recently we have 
been able to cap the well and kill the well. This is a facility 
that has 115 wells, that has the biggest gas facility west of 
the Mississippi.
    One of these wells sprung a leak on October 23rd, and like 
I said, for 4 months that leak had continued to go.
    During this time, our priorities were to make sure that the 
people were taken care of, make sure that as quickly and as 
safely as possible this leak was going to be capped, and in the 
future make sure that this was not going to happen again. So if 
there was going to be legislation, we are going to have to work 
with the State legislators as much as we worked with the 
Federal congressional delegation.
    We worked with the families to make sure that they were 
relocated. Two complete schools were relocated. Those kids will 
stay relocated through the end of the semester. So they will be 
at two different schools until the end of the semester, and 
then they will come back to their schools.
    Over 3,000 people have been relocated during this 
timeframe, and again, this has taken 4 months to fix. We are 
nowhere near the end of this tragedy. Getting people back in 
their homes, getting the faith that they are safe, making sure 
that the other wells have been checked, making sure that there 
are no other leaks has been a priority by not just my office, 
but by Congressman Sherman's office and the local elected 
folks.
    The next set of challenges is just this. What do we do at 
the State level? What do we do at the Federal level?
    I have authored legislation, and I know that Congressman 
Sherman has authored legislation. We are looking at setting 
standards at the Federal level and then making sure that the 
other 35 or so States that have these types of underground 
facilities, this underground piping, have some sort of a 
baseline.
    Now, States can take it over. In the State of California we 
have DOGGR [Division of Oil, Gas, and Geothermal Resources], 
and we have the CPUC [California Public Utilities Commission]. 
We have the Governor's office. They can take these limits and 
raise them, but there should be some sort of standards.
    This facility is probably the largest facility in the 
country. Twenty-one million people have something to do with 
Aliso Canyon for their gas or for their electricity in the 
summer.
    When the leak happened, we found that there were several 
problems with the mercaptans that went in the air, the benzenes 
that went in the air. We had kids; we had elderly; we had folks 
that had nosebleeds, headaches, could not go to work, all of 
these types of medical problems that happened from the leak.
    Now, over these next couple of months I vow to work to make 
sure that we do have these standards in place, make sure that 
Federal legislation sets that bar, that baseline, and to make 
sure that the State legislators are doing their part.
    There are already two packages moving forward by the 
senator in the area and by the assemblyman in the area to make 
sure that they have their standards at the State level.
    This is a terrible tragedy. It impacted tens of thousands 
of people in a 5-mile radius. Some people say it is larger than 
that. I do believe it is larger than the 5-mile radius. This is 
something that we never want to see again, and this will take 
months if not years to build back the faith that this is a safe 
facility and to make sure that the people have the faith that 
we are doing the right thing.
    Now, next door there is another facility that is also in my 
district, and that is on El Rancho, and that is another 
facility that is about one-quarter as big as Aliso Canyon. So 
with those two facilities you have the largest underground gas 
area in the country, and they are within 15 miles.
    So this is something that impacts not just me, not just 
Congressman Sherman, but all of the people in the area, the 11 
million people that live in L.A. [Los Angeles] County, and this 
is something that we take extremely seriously, and I appreciate 
you having us here for this hearing.
    Mr. Denham. Thank you, Mr. Knight. Thank you for your 
testimony.
    Mr. Sherman, you may proceed.
    Mr. Sherman. Thank you for having us here.
    For 117 days the northern Los Angeles community Porter 
Ranch was the victim of the largest natural gas leak in 
American history. My home is about as close as any to a well 
that leaked 5 to 6 billion cubic feet of methane, methane plus 
the mercaptan, which is the odorant, which turns out to be 
possibly toxic, and volatile organic compounds, including 
benzene which is a carcinogen.
    That, Congressman Knight said, an Empire State Building 
filled with gas every day for 117 days. Over 7,500 families 
including my nextdoor neighbors have been forced to relocate 
for months. Schools have been closed, businesses have suffered.
    The industry subculture was that methane could only be a 
problem if it burned or exploded, and as long as you were a few 
hundred feet away, everything was fine.
    Now we have discovered that a natural gas leak with 
mercaptan, with volatile organic compounds can be an air toxin 
5 miles or Congressman Knight says even further than 5 miles 
away.
    The U.S. Department of Transportation's Pipeline and 
Hazardous Materials Safety Administration, PHMSA, has 
established Federal safety regulations for natural gas 
transportation, which my colleague from northern California 
will address, but they have no regulation for natural gas 
storage.
    Our California regulations are weak. The history will show 
you--this incident will show you how weak. Wells were drilled 
in the 1950s, and they were then used to create the fifth 
largest natural gas facility in the country located just blocks 
outside the Los Angeles City limits. It stores 160 billion 
cubic feet of natural gas that is roughly 80 billion of working 
gas, 80 billion of cubic gas.
    The pipes are eligible for Social Security. That is how old 
they are, but even in the 1950s they knew that there should be 
a subsurface safety valve, and they installed one on well SS25. 
In 1979 they took it out and did not replace it, and here is 
the bad part. And they were in compliance with the nonexistent 
Federal regulations and with the weak State regulations because 
the State regulations just require you have a subsurface safety 
valve if you were in 300 feet of a home or school.
    Yet we have learned that this is dangerous 5 miles away.
    The testing that was required every year was just to 
determine whether there was actual leaking gas at that moment, 
not testing to find whether there were anomalies in the pipe 
and to repair those anomalies. That is why along with 17 
colleagues I have introduced the Gas Storage Safety Act and 
Congressman Knight has a similar bill that would require PHMSA 
to promulgate and enforce safety standards for natural gas 
storage facilities.
    In addition, it creates a grant program to do some research 
to find a less toxic version of mercaptan so that we do not put 
something in the gas for safety and then discover that it is 
causing health problems for a 5-mile radius.
    We need tough national standards. So far PHMSA has issued 
an advisory asking please, pretty please, for the industry to 
follow the American Petroleum Institute's standards. At a 
minimum we should immediately require that those standards be 
followed and then move up from there, not just ask.
    And if you are concerned that the API standards might be 
too tough, I have checked with Bernie. The American Petroleum 
Institute is not a socialist organization.
    Not only do we have to look at the safety of each storage 
facility and each well, but you need a robust system. As Mr. 
Capuano has heard me say many times, too big to fail is too big 
to exist. This facility by itself provides 80 percent of the 
natural gas storage for the L.A. metro area. So our regulators 
are told it may not be safe to reopen, but it is necessary to 
reopen if people are going to generate electricity and be able 
to heat their homes and heat water in the Los Angeles area.
    Never again should a major metropolitan area be dependent 
or so dependent on just one facility.
    So I look forward to working with you to address this 
issue. I am relatively confident my own State will get tough 
regulations because there is huge political pressure to do so, 
but this incident needs to be an alarm clock that goes off and 
is a wake-up call, and it needs to be loud enough to be heard 
here in Washington 3,000 miles away.
    And I yield back.
    Mr. Denham. Thank you, Mr. Sherman.
    Mr. Speier, welcome back. Thank you for joining us this 
morning.
    Ms. Speier. Mr. Chairman, thank you. To Ranking Member 
Capuano and Chairman Shuster, thank you again for the 
opportunity to come before you.
    I was here about a year ago to speak to you about the last 
gas pipeline safety measures at PHMSA, and here we are again. 
It has been 5\1/2\ years since the explosion in San Bruno that 
killed 8 of my constituents, leveled more than 30 homes, 
destroyed a neighborhood, and I cannot go back to them and face 
them eye to eye and say that things are any better on the 
Federal level.
    Once again we have a bipartisan group of lawmakers who are 
willing to point out that PHMSA has not yet implemented the 
most important mandates in the 2011 law. Now, mind you one of 
those mandates was to strike the grandfather clause that allows 
pipes that are older than the 1970s from being subject to any 
kind of regulation.
    Now, how difficult is it to strike a line from the existing 
law?
    So all of that pre-1970s hype is still not subject to the 
kind of rigor that we impose on more recent pipes. It does not 
make a lot of sense.
    The 2 years that I spent on this issue working with the 
National Transportation Safety Board, looking at PHMSA, meeting 
with the former Administrator of PHMSA, has taught me one 
thing. The relationship between PHMSA and the industry is too 
cozy, much like the California Public Utilities Commission has 
too cozy a relationship with the utilities in California. That 
is really a disaster in the making as we have seen over and 
over again.
    So what we have here is a situation where curbing bad 
corporate behavior is not a priority, and for all of the people 
in this country who are concerned about the lack of 
accountability in our institutions, we do not have to look very 
far, and PHMSA is a great example.
    I hope our new Administrator is going to shake it up, but 
when you have a law that has been put into effect back in 2011 
and we still do not have the regulations out, you know, shame 
on us, too, for not just yanking the funding from that agency 
until they get their act together.
    Now, I will tell you that there is a litany of disasters 
that have happened, San Bruno; Mayflower, Arkansas; Porter 
Ranch in California. What it appears is that these corporations 
seem to think that destroying people's lives, destroying their 
homes, destroying the quality of their lives is just the cost 
of doing business.
    This cavalier attitude is made worse by a dangerous 
inconsistency in the law. For hazardous materials there are 
criminal penalties for a person who knowingly or willfully or 
recklessly violates the law, but for gas pipelines, it is only 
a standard of knowingly and willfully. So you cannot actually 
get to that bad behavior because even though it is reckless, it 
is not knowingly or willfully sometimes.
    This difference has had real consequences, and we only have 
to look again at PG&E [Pacific Gas and Electric Company]. Just 
last month a former PG&E employee said management ordered her 
to destroy documents, and that she found a telltale pre-blast 
analysis of the San Bruno pipe in the garbage.
    Now, was that reckless? Was it knowingly and willfully? 
Maybe knowingly and willfully, but you could not be certain. 
You could certainly call that reckless, but again, that 
standard does not apply.
    The same holds true for an incident in Carmel, California, 
just 2 years ago where PG&E's careless recordkeeping practices 
caused an explosion that flattened a house which was 
fortunately vacant.
    There is plenty of evidence that the current law is not 
enough to stop corporate wrongdoing. In 2011, a leak from an 
83-year-old cast-iron pipe in Allentown, Pennsylvania, I 
believe in the chairman's district, caused a blast that killed 
five people.
    In 2012, a gas pipeline explosion outside Charleston, West 
Virginia, destroyed several properties. The list goes on and 
on.
    Mr. Chairman and Ranking Member, let those responsible for 
these tragedies be held responsible for their actions or for 
their lack of actions. We need PHMSA to be a strong voice for 
safety, not a toothless tiger and not a lapdog for the 
industry.
    And we need a fair criminal statute to ensure that those in 
industry who are currently apologists for lethal mediocrity are 
held responsible for the lives they take. Please hold gas 
pipelines to the same legal standard as hazardous material 
transportation.
    I thank you and I yield back.
    Mr. Denham. I thank you to the Members on our first panel. 
We will now go to our second panel.
    I would like to welcome our witnesses. And we will start 
this morning on our second panel with Administrator Dominguez.
    Thank you for joining us. We welcome your testimony.

   TESTIMONY OF HON. MARIE THERESE DOMINGUEZ, ADMINISTRATOR, 
PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION; ANDREW 
  J. BLACK, PRESIDENT AND CEO, ASSOCIATION OF OIL PIPE LINES; 
  DONALD F. SANTA, PRESIDENT AND CEO, INTERSTATE NATURAL GAS 
ASSOCIATION OF AMERICA; CHERYL CAMPBELL, SENIOR VICE PRESIDENT, 
 GAS, XCEL ENERGY, ON BEHALF OF THE AMERICAN GAS ASSOCIATION; 
   AND CARL WEIMER, EXECUTIVE DIRECTOR, PIPELINE SAFETY TRUST

    Ms. Dominguez. Chairman Denham, Ranking Member Capuano, 
members of the subcommittee, thank you very much for inviting 
me to testify today on the reauthorization of the U.S. 
Department of Transportation's Pipeline and Hazardous Materials 
Safety Administration's pipeline safety program.
    PHMSA operates in a dynamic and challenging environment. 
The demand for our work has increased, as has the complexity 
and scope of our mission and responsibilities. The development 
of new energy resources, advancements in technology and the use 
of hazardous materials in everyday products impact 
transportation safety.
    Recent incidents and increased public awareness and 
sensitivity to safety hazards and environmental consequences 
have resulted in increased scrutiny of the agency and a demand 
that we become proactive, innovative, and forward looking in 
all that we do.
    Addressing the mandates in the Pipeline Safety Act of 2011 
is a priority for PHMSA. The act included 42 new congressional 
mandates to advance PHMSA's safety mission, and we have 
completed 26 mandates to date.
    Since I was appointed last summer, we have made progress in 
addressing four outstanding rulemakings from the act, including 
publishing a final rule on pipeline damage prevention programs, 
and proposing rulemakings on expanding the use of excess flow 
valves and distribution lines, operator qualification, cost 
recovery, and accident notification, and a significant rule 
addressing the safety of hazardous liquid pipelines.
    We are currently working to issue our proposed rulemaking 
on natural gas transmission within the next month.
    Congress has made investments in PHMSA, providing 100 new 
positions for the pipeline safety program alone in the last 
year, and we have filled over 91 percent of these positions. 
Moving forward we must continue to utilize the investments that 
Congress has provided wisely.
    Over the past 6 months I have worked to better understand 
PHMSA's strengths, capability gaps, and areas for improvement. 
We have undertaken an organizational assessment that evaluated 
the agency's structure and processes. This assessment provided 
PHMSA's leadership team deeper insight into an organization 
where safety is a personal value for all of our talented and 
dedicated employees and highlighted critical investment areas.
    As a result, PHMSA has updated its strategic framework, 
recognizing the need to improve our capacity to leverage data 
and economic analysis, promote continuous improvement in safety 
performance through the establishment of safety management 
systems both within the agency and across industry, and by 
creating a division that will support consistency in mission 
execution.
    This new framework, called PHMSA 2021, was directly 
informed by PHMSA employees and will allow us to be more 
predictive, consistent, and responsive as we fulfill our 
mission of protecting people and the environment by advancing 
the safe transportation of energy and other hazardous materials 
that are essential to daily lives of all Americans.
    PHMSA 2021 will allow us to better prioritize our work and 
be proactive in informing, planning, and execution. It will 
also allow us to be more predictive in our efforts to mitigate 
future safety issues and to implement data-driven, risk-based 
inspections, leading our regulated communities in a direction 
that powers our economy, cultivates innovation, and prioritizes 
safety.
    Thank you for continuing to invest in PHMSA. I look forward 
to continuing to work with the Congress to reauthorize PHMSA's 
pipeline safety program, and I would be pleased to answer any 
questions you may have.
    Mr. Denham. Thank you, Ms. Dominguez.
    Mr. Black, you may proceed.
    Mr. Black. Hi. I am Andy Black, president and CEO of the 
Association of Oil Pipe Lines.
    AOPL represents transmission pipeline operators who deliver 
crude oil, refined products like gasoline, diesel fuel and jet 
fuel, and natural gas liquids, such as propane and methane.
    I am also testifying today on behalf of the American 
Petroleum Institute.
    Our U.S. pipelines extend over 199,000 miles across the 
country, safely delivering more than 16.2 billion barrels of 
crude oil and energy products a year. Pipelines play a critical 
role in delivering energy to American workers and families.
    Americans use the energy our pipelines deliver in their 
cars and trucks to commute to work or drive on the job; provide 
rural heating and crop drying and support good-paying 
manufacturing jobs.
    The average barrel of crude oil or petroleum products 
reaches its destination safely by pipeline greater than 99.99 
percent of the time. According to PHMSA data, significant 
liquids pipeline incidents that could affect high consequence 
areas are down 8 percent over the last 5 years. Significant 
liquid pipeline incidents per mile that are over 50 barrels in 
size are down 19 percent over the last 5 years.
    But even with these positive pipeline safety performance 
numbers, the member companies of AOPL and API are constantly 
working to improve pipeline safety further. Last year operators 
completed development of a number of industrywide recommended 
practices and technical reports to improve our ability to 
detect pipeline cracking, integrate safety data, manage safety 
efforts holistically, manage leak detection programs, and 
better plan for and respond to pipeline emergencies.
    This year we turned to the implementation of these safety 
recommendations industrywide. A prime example is our effort to 
encourage and assist implementation of API Recommended Practice 
1173 for Pipeline Safety Management Systems. Recommended by 
NTSB [National Transportation Safety Board] and developed in 
conjunction with PHMSA and State pipeline regulators, the tool 
is helping pipeline operators comprehensively manage all of the 
safety efforts across the company.
    The aviation, nuclear power, and chemical manufacturing 
industries have benefitted from safety management systems. Now 
more pipeline operators are benefitting, too.
    In 2016, pipeline operators will also complete expansion of 
industrywide guidance on river crossings, develop a new 
recommended practice for construction quality management, and 
update our industrywide recommended practice for pipeline 
integrity program management, API RP 1160.
    This last safety improvement action brings us to last 
summer's pipeline release near Refugio, California. We echo the 
words of Transportation Secretary Foxx last week calling the 
preliminary incident report from PHMSA an important step 
forward that will help us learn what went wrong so that 
everyone involved can take action and ensure that it does not 
happen again. Our members are committed to using the lessons 
learned from the incident to take that industrywide action to 
prevent a release like this from happening again.
    PHMSA's preliminary factual findings could be described as 
the ``what'' of an incident. We expect PHMSA's final report 
later this year will contain root cause analysis and 
recommendations describing the still unknown ``how'' and 
``why'' this event occurred. At a minimum, we know there is an 
opportunity for further industrywide discussion and perhaps 
guidance for those operators that use a specific type of 
pipeline involved with that release, insulated pipe 
transporting heated crude.
    As part of our update of RP 1160, industrywide integrity 
management guidance, we will ensure that learnings from 
industrywide review of that release and PHMSA incident report 
recommendations are reviewed and incorporated where 
appropriate. This effort will be finished later this year more 
expeditiously than could occur through an agency notice and 
comment rulemaking process.
    Turning to the next reauthorization of the national 
pipeline safety program, there is still much left to do for 
PHMSA from the 2011 law. PHMSA is working to finalize a liquid 
pipeline rulemaking, as Administrator Dominguez said. Another 
PHMSA rulemaking on valves is likely to be proposed this 
spring.
    We commend Congress for its recent oversight of PHMSA which 
has resulted in the Administration releasing several proposals 
and promising additional ones, and we encourage your continued 
oversight.
    PHMSA under its new leadership has certainly expressed its 
resolve to move more expeditiously to meet its statutory and 
regulatory mandates. Pipeline operators have not stood by and 
instead have advanced safety initiatives on inspection 
technology, cracking, data integration, safety, leak detection 
and emergency response.
    With the numerous recent industry initiatives addressing 
current pipeline safety topics and additional PHMSA regulatory 
actions still to come, we encourage Congress to reauthorize the 
pipeline safety program without adding significant new 
provisions.
    Thank you for inviting me here, and I look forward to 
answering any questions.
    Mr. Denham. Thank you.
    Mr. Santa, you may proceed.
    Mr. Santa. Good morning, Chairman Denham, Chairman Shuster, 
Ranking Member Capuano and members of the subcommittee. My name 
is Donald Santa, and I am president and CEO of the Interstate 
Natural Gas Association of America, or INGAA.
    INGAA represents interstate natural gas transmission 
pipeline operators in the U.S. and Canada. The pipeline systems 
operated by INGAA's 24-member companies are analogous to the 
Interstate Highway System, transporting natural gas across 
State and regional boundaries.
    My written statement references the numerous pipeline 
safety efforts that have been undertaken by industry and 
policymakers over many years. We have a safe industry, but we 
know we can and should be doing more.
    In the wake of the natural gas pipeline accident in 
California in 2010, INGAA's board of directors committed the 
association and its member companies to the goal of zero 
pipeline safety incidents. While this is a tough and some would 
say impossible goal to meet, the emphasis is in the right 
place, the pursuit of excellence.
    As progress towards INGAA's goal of zero incidents is made, 
we also want to see regulations finalized that will 
consistently move us in the same direction. As you know, 
several key mandates from the 2011 reauthorization have not 
been completed by the Pipeline and Hazardous Materials Safety 
Administration or even proposed for comment.
    We recognize that these delays have been caused at least in 
part by issues beyond PHMSA's control. We, therefore, hope 
Congress will continue to press PHMSA and more broadly the 
Obama administration to accelerate fulfillment of the 2011 
mandates.
    It is worth recalling that the title of the most recent law 
reauthorizing the Pipeline Safety Act is the Pipeline Safety, 
Regulatory Certainty, and Job Creation Act of 2011. Regulatory 
certainty is imperative.
    INGAA has three principal goals for the pending 
reauthorization. First, we support reauthorization of the 
pipeline safety program during this Congress at funding levels 
that are consistent with the recent Senate Commerce Committee 
action.
    Establishing authorized funding levels for appropriators to 
consider remains an important element of legislative oversight.
    Second, INGAA believes that PHMSA in the near term should 
dedicate the bulk of its rulemaking efforts to completing the 
2011 act mandates, and we hope the Congress will emphasize this 
imperative in the reauthorization.
    Many critical regulatory questions remain, and until these 
questions are answered, it is difficult to move forward on 
either a voluntary or a compliance basis. Save for the issue I 
will mention next, PHMSA should focus on eliminating its 
backlog before moving on to new issues.
    Our third principal goal and the one exception to the 
preceding statement would be new regulations for underground 
natural gas storage. INGAA identified safety regulations for 
underground natural gas storage as an area that needed 
attention as far back as 2011. While the recent accident in 
California has intensified interest in this issue, the need for 
Federal standards and regulation predated this development.
    INGAA suggests that Congress direct PHMSA to adopt 
regulations for underground natural gas storage facilities by a 
date certain; use newly developed consensus standards as the 
basis for such regulation; and allow PHMSA to fund this 
regulation through new user fees assessed on storage operators.
    The Senate legislation and several House bills would meet 
these objectives.
    Thank you for the opportunity to testify today, and I am 
happy to answer any questions from the subcommittee.
    Mr. Denham. Thank you.
    Ms. Campbell.
    Ms. Campbell. Good morning, Chairman Denham and members of 
the committee. My name is Cheryl Campbell, and I am the senior 
vice president of gas for Xcel Energy. We provide the energy 
that powers millions of homes and businesses across eight 
Western and Midwestern States.
    Headquartered in Minneapolis, we are an industry leader in 
responsibly reducing carbon emissions and producing and 
delivering clean energy solutions from a variety of renewable 
sources at competitive prices.
    Today I am testifying on behalf of the American Gas 
Association, which represents more than 200 local distribution 
companies, also known as LDCs, which serve more than 71 million 
customers.
    AGA's member companies operate 2\1/2\ million miles of 
underground pipelines, safely delivering clean, affordable 
natural gas to residential, commercial and industrial 
customers.
    LDCs provide the last critical link in the energy delivery 
chain, connecting interstate pipelines directly to homes and 
businesses. Our focus every day is ensuring that we keep the 
gas flowing safely and reliably.
    As part of an agreement with the Federal Government, most 
States assume primary responsibility for safety regulation of 
LDCs, as well as intrastate transmission pipelines. State 
governments are encouraged to adopt minimum standards 
promulgated by the U.S. Department of Transportation.
    Many States also choose to adopt standards that are more 
stringent than the Federal rules.
    Additionally, our companies are in close contact with State 
pipeline safety inspectors, and we work in a collaborative 
manner that provides for far more inspections than required 
under Federal law.
    LDCs do not operate strictly in a compliance culture but 
rather in a culture of proactive collaborative engagement. Each 
company employs trained safety professionals; provides ongoing 
employee evaluations and safety training; conducts rigorous 
system inspection, testing, maintenance, repair and replacement 
programs; and educates the public on natural gas safety.
    AGA's Commitment to Enhancing Safety adopted in 2011 
provides a summary statement of those commitments, and as an 
aside, AGA member companies have included the API Recommended 
Practice for storage, API RP 1170 and 1171. It was recently 
approved by the board and incorporated in what was in my 
written testimony.
    The association has also developed numerous pipeline safety 
initiatives focused on raising the bar on safety, including 
peer-to-peer reviews and best practice forums to share best 
practices and lessons learned throughout the industry.
    Each year LDCs spend approximately $22 billion on safety. 
Approximately half of that is on voluntary activities. The 
Pipeline Inspection, Protection, Enforcement, and Safety Act of 
2006 and the Pipeline Safety, Regulatory Certainty, and Job 
Creation Act of 2011, both outline several programs to help 
continue to improve the safety of the industry. AGA member 
companies have implemented aspects of these programs either 
through DOT regulations or on a voluntary basis.
    Many of these programs are in their infancy in terms of 
implementation, and we encourage Congress to allow these 
programs to develop and mature in order to realize their full 
impact.
    In the case of the unanimously passed 2011 act which dealt 
with a number of key issues, several of the required 
regulations have yet to be promulgated or finalized. Progress 
is being made, and thus, we strongly encourage the committee to 
be judicious in making major changes to the law at this time.
    PHMSA has issued a number of significant guidance 
documents, released the results of a congressionally mandated 
study on leak detection and created a database to track 
progress in replacing cast-iron and bare steel pipelines.
    Likewise, the industry, NARUC [National Association of 
Regulatory Utility Commissioners], State regulators and State 
legislators have combined to produce significant pipeline 
safety improvements over the last several years. We should 
continue building on that record.
    With regard to the replacement of cast-iron mains, the 
quantity of these mains continues to steadily decrease and now 
makes up less than 2 percent of the overall inventory in the 
Nation. The industry estimates that it will cost over $80 
billion to complete this replacement. Natural gas utilities are 
working with our legislators and regulators to accelerate this 
process, and today 39 States and the District of Columbia have 
adopted specific rate mechanisms to facilitate accelerated 
replacement of pipelines no longer fit for service.
    The cumulative result of all these important actions is 
that industry is replacing cast-iron pipe as well as bare steel 
as quickly as possible in a safe and cost-effective manner.
    In addition to what I have highlighted today, my written 
testimony provides industry updates on incident notification, 
data collection and information sharing, and I would be happy 
to answer any questions you have.
    Mr. Denham. Thank you.
    Mr. Weimer.
    Mr. Weimer. Good morning, Chairman Denham, Ranking Member 
Capuano, and members of the committee. Thank you for inviting 
me to speak today on the important subject of pipeline safety.
    The Pipeline Safety Trust came into being after a pipeline 
disaster that occurred nearly 17 years ago. At that time we 
were asked by the Federal courts to create a watchdog 
organization over both the industry and the regulators. We have 
been trying to fulfill that vision ever since, but the increase 
in the number of significant incidents over the past decade 
driven primarily by releases from liquid pipelines from causes 
well within pipeline operators' control makes us sometime 
question whether our message is being heard.
    Today I would like to dedicate my testimony in the memory 
of Peter Hayes, who I met shortly after a Chevron pipeline 
dumped oil into Red Butte Creek in Salt Lake City. Mr. Hayes, a 
schoolteacher, was raising his family in a home that sat on the 
banks of Red Butte Creek, and he was extremely concerned about 
the possible long-term health effects to the people in that 
area who were not evacuated and experienced many different 
health symptoms associated with exposure to crude oil.
    He pushed hard for better emergency response and for 
someone to follow up with a study to determine whether people 
so exposed would experience any long-term health effects. No 
one ever did such a study, and in a tragic twist of fate, Mr. 
Hayes came down with the rare lung disease that may, in part, 
be caused by such exposure to environmental pollutants. He died 
last year.
    The need for studies on the health effects from exposure to 
oil spills has long been a void in our pipeline safety system 
and was recently again called for by a National Academy of 
Sciences panel.
    Often in these hearings the focus in on how PHMSA has 
failed to implement various mandates or moved too slowly on 
regulatory initiatives. While we agree that those things are 
all important and certainly fair game at such hearings, today 
we would like to focus our testimony on how the pipeline safety 
system that Congress has created also has much to do with 
PHMSA's inability to get things done.
    PHMSA can only implement rules that Congress authorizes 
them to enact, and there are many things in the statutes that 
could be changed to remove unnecessary barriers to more 
effective and efficient pipeline safety.
    The pipeline safety statutes are the responsibility of 
Congress and today we will speak to issues where Congress needs 
to act if there is a real desire to improve pipeline safety.
    Some of the things that Congress could change fairly easily 
would be to provide PHMSA with emergency order authority like 
other transportation agencies have. This would allow PHMSA to 
quickly correct dangerous industrywide problems, such as the 
lack of minimum rules for underground gas storage or the lack 
of valid verification for maximum allowable operating 
pressures.
    At the same time, by eliminating the unique and duplicative 
cost-benefit requirements in the pipeline statute, normal 
rulemakings could proceed at more than the current glacial 
speed.
    Congress also needs to harmonize the criminal penalty 
section of PHMSA statutes so in the rare case when pipeline 
companies willfully or recklessly cause harm to people or the 
environment they can be prosecuted as necessary, and Congress 
should also add a strong mandamus clause to allow Federal 
courts to force PHMSA to fulfill their duties when it is the 
agency dragging its feet.
    The National Academy of Sciences, as I mentioned earlier, 
recently completed a congressionally mandated study that showed 
there were a number of serious issues with the way PHMSA 
oversees spill response planning and the contents of those 
plans. We hope you will rapidly move to ensure that PHMSA is 
reviewing these plans not only for completeness, but also for 
efficacy as other agencies do and require companies to provide 
clear information so first responders know what they are up 
against.
    We also ask that you honor the memory of Peter Hayes and 
request an additional study by the National Academy of Sciences 
to help alleviate the lack of information about how to better 
protect people from the short- and long-term health effects of 
pipeline failures.
    Finally, we have a few concerns with the language included 
in the reauthorization bill that the Senate has been working on 
and hope you can address these concerns in your own bill. In 
particular, we think the wording in the statutory preference 
section of the Senate bill may actually slow needed rules.
    We also think the language regarding underground gas 
storage needs to be clarified to ensure that an open rulemaking 
process happens and that whatever is passed allows States to 
set stricter standards for facilities within their borders.
    And finally we think the language in that bill regarding 
small LNG (liquefied natural gas) facilities pushes PHMSA too 
much to rely on industry development standards and hard-to-
enforce, risk-based systems.
    I see my time is about up. So I want to thank you for the 
opportunity to testify today, and I would be glad to answer 
questions now or in the future.
    Mr. Denham. Thank you, Mr. Weimer.
    One of the things that we are going to be struggling with 
or at least having a great deal of discussions about as we are 
finalizing and continuing to work on our reauthorization bill 
is the 2011 bill, 46 different mandates. Only 26 of them are 
completed already.
    I know that there is some work in progress on some of 
those, but before we get into those mandates themselves, you 
and I, Ms. Dominguez, have talked about the reorganization. You 
did not touch on that much in your opening testimony. I was 
hoping you could expand upon that a little bit now, but 
specifically how the reorganization is going to help you to 
meet these 2011 mandates.
    Ms. Dominguez. Thank you, Chairman Denham.
    There are two things that we are looking to do at PHMSA. 
One, we have created a strategic framework that addresses our 
ability to actually be more proactive, to look at market trend 
analysis, understand what is occurring in a very changing 
energy environment. Clearly the energy market in this country 
has fundamentally transformed over the last few years, let 
alone the last decade, and in an ability for PHMSA to remain 
cutting edge, to actually be more proactive and be more 
predictive, we want to establish two particular offices that 
will help drive information collection, data analysis, and a 
more rigorous economic analysis of our regulatory framework.
    So bottom line, create two positions. One would be an 
executive director position, which would be a career position 
at the agency. That would help drive operational consistency, 
application of our programs, and really be the force that 
drives, again, consistency across the agency.
    The other one is an Office of Planning and Data Analysis. 
That would be the place where we would actually do more 
performance-based planning, look at doing a whole bunch of data 
collection and analysis that would inform our rulemakings, but 
also inform the way we are better in forming our regulations so 
that, one, we are timely in our regulations. We are looking to 
see what is down the road and knowing what the energy market is 
providing and being more predictive. And so we have got the 
data. We are ready to go. We can do some rigorous economic 
analysis and move regulations forward in a more rigorous way.
    We are not waiting to collect data. We are not being 
reactive to situations, but we are actually being more forward 
leaning.
    So that is the intention with the reorganization.
    Mr. Denham. OK. With that reorganization now put in place, 
we would ask you to give us a little more definitive timelines 
on the 26 mandates that are not complete yet.
    The hazardous liquid rule, I think you said that was going 
to be done in the next several months. If you could define that 
specifically now and give us a better idea of when specifically 
that one will be done, and then we can go through.
    I know you had some timelines on some of the 26. We would 
expect a timeline on all 26.
    Ms. Dominguez. So, in particular, the hazardous liquid 
rule, the notice of proposed rulemaking was published on 
October 13th of last year. Comments were received in January. 
The advisory committee met in February. We are in the process 
of finalizing that rule right now.
    We are going through not just the comments, but working 
through all the details of the hazardous liquid rule. We hope 
to submit that shortly to the Department for final review, and 
then it will go to OMB, and we would hope to publish it in the 
coming months as the final rule. That is the hazardous liquid 
rule.
    The other very important rule, I think, that is pending 
from the 2011 act is the gas transmission rule. The gas 
transmission rule has been something that I have personally 
worked on. Both the hazardous liquid rule and the gas 
transmission rule are two of the most significant rulemakings 
that have been in the works since I have come onboard.
    Again, we have got the hazardous liquid rule going. We are 
also doing the same on the gas transmission rule. We literally 
hope that within a matter of weeks here, we will be publishing 
the notice of proposed rulemaking on the gas transmission rule.
    That will include a number of the requirements that are in 
the mandate from the act of 2011 and hope to cover those.
    Mr. Denham. Thank you.
    My time has expired. I now recognize the ranking member for 
5 minutes.
    Mr. Capuano. Thank you, Mr. Chairman.
    I want to thank the panel today.
    Ms. Dominguez, have you got the authority right now to 
immediately implement the API standards relative to underground 
storage facilities?
    Ms. Dominguez. We do have the authority to promulgate 
rulemaking.
    Mr. Capuano. No, that is not what I asked. Do you have the 
authority to immediately implement them right now?
    Ms. Dominguez. We have the authority to take these 
standards and turn them into rules, yes.
    Mr. Capuano. All right. So that--answer my question. I am 
trying to be friendly.
    Ms. Dominguez. Yes, we do.
    Mr. Capuano. To do it right now. Not a rule that takes 2 
years to get passed because OMB does not do a damn thing.
    Ms. Dominguez. There is just----
    Mr. Capuano. I know. You do not have to comment on that 
last part.
    Ms. Dominguez. So there are different standards for 
rulemaking. So it is meant to be as you know a methodical 
process. If we were to go to----
    Mr. Capuano. No, no, no. I just want to know one simple 
thing. Do you have the authority right now to go back to your 
office and implement the API standards for underground gas 
tanks starting now?
    Ms. Dominguez. No.
    Mr. Capuano. Why not?
    Ms. Dominguez. Because we have to go through a rulemaking 
process, and that----
    Mr. Capuano. Because you do not have emergency order 
authority; is that right?
    Ms. Dominguez. Correct.
    Mr. Capuano. If you had that authority could you do it?
    Ms. Dominguez. If we had, yes.
    Mr. Capuano. OK. I say that because I think you should have 
emergency order authority. Corrective action authority takes 
too damn long and jeopardizes people's lives when we know there 
is a problem.
    When there is a problem like the one we know about in 
California, I think thoughtful regulators should have the 
ability to immediately implement especially standards that are 
already accepted by the industry, and to have to wait any 
longer, that is crazy.
    We need to get emergency order authority into this 
legislation.
    And I guess I want to go to Mr. Santa. Mr. Santa, my 
colleague, Ms. Speier, made a comment that PHMSA and the 
utility companies and others are a little bit too cozy. Do you 
agree with that?
    Mr. Santa. No, sir, Mr. Capuano, I do not agree with that.
    Mr. Capuano. OK.
    Mr. Santa. I believe we are the regulated entities. We are 
subject to their authority.
    Mr. Capuano. Just out of curiosity, one of my concerns is 
as I understand it, and I read an article from the San 
Francisco Chronicle that is actually several years old now that 
basically said two-thirds of the studies, two-thirds of the 
studies conducted by PHMSA are funded by the utility companies 
themselves that PHMSA regulates.
    And when you fund a study, and I do not mind some funding 
that is blind funding. That does not bother me. That happens 
all the time in business, but when it is not blind funding, but 
when the funder is the regulated person who also then manages 
the study, who can have faith that that study is neutral and 
not self-serving and does not look a little too cozy?
    Mr. Santa. Sir, first of all, all of PHMSA's funding comes 
from user fees that are assessed from the industry.
    Mr. Capuano. I do not have a problem with the funding as 
long as it is blind funding.
    Mr. Santa. And also PHMSA has advisory committees that 
include representatives not only from the regulated entities, 
but also from the State regulators, public advocates such as 
Mr. Weimer.
    Mr. Capuano. All well and good. You do not think there is a 
problem when a regulated entity and I mean not just here, but 
any regulated entity also not just pays for, but then hires and 
conducts the study that then says what safety regulations 
should be?
    Who is the regulator? That does not happen in any other 
industry. I happen to come from a district where research is 
what we do. More than any other segment of this country or, in 
fact, the world, research is done in my district and is funded 
all the time by private companies.
    I do not have a problem with the funding. Those private 
companies fund them in a blind study so that they can't affect 
the outcome. That does not mean they are not advised. That does 
not mean that their opinions are not listened to. It means that 
they can't control the study. Therefore, we have faith in the 
results that those studies are at least the opinions of 
independent scientific research as opposed to simply self-
serving anointments by the very people who are trying to get 
something done.
    You do not think that is a problem?
    Mr. Santa. Mr. Capuano, I think that it is important for 
the process to have integrity, and I think that if PHMSA 
believed that what was being produced did not have that 
integrity it has the ability to conduct it in a----
    Mr. Capuano. Here you go, Ms. Dominguez. We will be talking 
again. These are not my favorite forums. I prefer roundtables 
where we can have discussions, but when it comes to these 
studies, you can expect to be talking to me.
    Again, it is not the funding and not about advising. I 
actually think that is important. It is about making sure that 
the results of those studies are independent and seen as 
independent by the rest of the world, and I think without that, 
those studies are maybe not worthless, but become very suspect 
and the agency becomes very suspect as being seen as too cozy 
with the people it regulates.
    With that my time is expiring, and I thank the chairman.
    Mr. Denham. Thank you, Mr. Capuano.
    Mr. Hanna.
    Mr. Hanna. I yield my time back to the chairman.
    Mr. Denham. Thank you, Mr. Hanna.
    Ms. Dominguez, what role does PHMSA play in regards to 
underground gas storage currently?
    Ms. Dominguez. With regard to underground gas storage, we 
have worked for many years with the States and looked primarily 
to the States to regulate in this area. Given the incredible 
occurrences at Aliso Canyon, I actually had the opportunity to 
go out there and visit last week with Secretary of Energy 
Ernest Moniz and take a look firsthand at what happened, and it 
is very clear that there is a role for the Federal Government 
to play in terms of regulating underground storage.
    There has been a lot of work that has been done, including 
development of two recommended practices in this area, one for 
reservoirs and one for salt caverns that could be addressed 
moving forward.
    In doing so, we would actually look to work very 
comprehensively with the States to make sure that we worked 
with them and understood some of their particular geologic 
formations.
    Mr. Denham. If you rely on the States, does that not create 
a patchwork across the country?
    Ms. Dominguez. I think the bottom line is if PHMSA has the 
authority to actually set Federal regulations in this area, if 
we did that, in doing so as we move forward in regulating in 
this area, we would set the minimum standards. The States have 
every ability to go above and beyond those standards and 
actually provide more details that are specific to their 
States, specific to their concerns, whatever their geologic 
formations may be, but again, they can go above our minimum 
requirements.
    Mr. Denham. Currently, PHMSA's authority stops at the 
pipeline even though the pipeline goes into the reservoir?
    Ms. Dominguez. Currently our authority stops at the well. 
We do not go down the hole at all.
    Mr. Denham. Thank you.
    You recently sent out a safety advisory in response to the 
Aliso Canyon underground gas storage. Can you tell us about the 
advisory, why you sent it out, what the goal of the advisory 
was?
    Ms. Dominguez. We issued an advisory opinion on February 
5th to all operators of natural gas storage facilities. We 
asked the operators to review their operations, identify 
potential leaks and failures, identify any threats, whether it 
is corrosion, chemical or mechanical damage, any kind of 
material deficiency that they may have.
    The advisory bulletin also asked operators to look at the 
location and operations of any kind of shutoff valves or 
isolation valves that they may have and make sure that they are 
testing their emergency plans as well.
    So it was a fairly comprehensive advisory bulletin to all 
operators of underground storage across the country.
    Mr. Denham. Thank you.
    Ms. Campbell, Representative Stephen Knight has introduced 
an act that would authorize minimum Federal standards. What 
position does AGA and the industry take on that proposal?
    And what Federal standards do you think would be helpful in 
this area?
    Ms. Campbell. AGA supports the adoption of the API 
standards for natural gas storage fields as a Federal minimum 
standard and also the ability of the States to add additional 
standards as they deem necessary for their area.
    Mr. Denham. And does AGA support Mr. Knight's bill?
    Ms. Campbell. I believe so, yes.
    Mr. Denham. Thank you.
    Mr. Santa, pipeline safety is a partnership between PHMSA 
and the States. PHMSA sets standards for interstate facilities 
and States take those standards and apply them to interstate 
facilities. Can you describe how preemption works?
    Are the States able to retain the flexibility with 
interstate pipeline safety while still meeting Federal 
standards?
    Mr. Santa. Mr. Chairman, the States with regard to the 
regulation of intrastate natural gas transmission pipelines and 
distribution pipelines can go beyond the Federal standards if 
they are consistent with them. However, with regard to 
interstate facilities, the facilities that are operated by the 
members of INGAA, we are subject to the PHMSA promulgated 
standards.
    There are some instances in which PHMSA, I believe, has 
delegated to the States the ability to do inspections. However, 
enforcement is within the province of PHMSA as the Federal 
regulator over interstate facilities.
    Mr. Denham. Thank you.
    I yield back.
    Mr. Larsen is recognized for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    And I want to welcome Carl Weimer here today. He is also a 
Whatcom County Council member in my district and the Pipeline 
Safety Trust is located in the top floor of a renovated house 
in downtown Bellingham, Washington, and they do a lot with a 
little, and so welcome. Welcome, Carl.
    And I also have a few questions for you as well, as it 
happens. I did not want you to fly all the way out here and not 
have any questions asked of you.
    But the San Bruno disaster is an example where emergency 
order authority could have addressed some systematic 
deficiencies immediately, and we talked a little bit about 
emergency order authority.
    Are there other instances that you believe would back up an 
argument for emergency order authority?
    Mr. Weimer. Yes, certainly. Thank you for the question.
    There have been a number of instances in the last 10 years 
that I can think of. You know, San Bruno was a good example 
where it became apparent that that particular company was not 
interpreting the rules correctly.
    We heard from other companies around the country perhaps 
they were not either, but through the corrective action order, 
PHMSA could only deal with PG&E. They could not deal 
industrywide. That is where emergency orders could step in.
    We have seen certain types of pipe that it has become, 
after accidents, obvious that it is a problematic type of pipe. 
You can correct the one company that is dealing with the pipe. 
You cannot correct things industrywide. So emergency order 
authority would allow PHMSA to move forward on things rapidly 
to correct things that become known to be an industrywide 
problem.
    Mr. Larsen. Is there a reason that you've looked at why 
PHMSA does not have it versus these other Federal agencies that 
do have emergency order authority?
    Mr. Weimer. I do not know why it is not in the statute. I 
know there are other agencies like the Federal Railroad 
Administration that do have that authority. I think others do 
also, and it certainly is needed.
    Mr. Larsen. Yes. Do you have experience with the State 
inspection program in Washington State?
    Mr. Weimer. Yes. I am actually appointed by the Governor to 
be on an oversight committee of that program.
    Mr. Larsen. Yes, and how does that work? Is that working in 
Washington State in terms of PHMSA delegation of inspection?
    Mr. Weimer. It is, and that is one of the areas where the 
Washington Utilities and Transportation Commission actually has 
a citizen-led pipeline safety committee that looks at what the 
industry and what the regulators are doing, and it works pretty 
well.
    I think that gives an added layer in Washington State of 
inspectors looking at interstate pipelines. As Mr. Santa said, 
they cannot set regulations that go above what the minimum 
Federal standards are, but it does give us another layer of 
inspectors, and I think the Washington Utilities and 
Transportation Commission takes that and does a lot of added 
value to that.
    They post all of the inspection results for both interstate 
and intrastate on their Web site. You know, I think that is the 
only State that I know of that posts actually the inspection 
results.
    Mr. Larsen. And finally for you, can you comment on the 
funding pipeline safety information grants to communities and 
what the law allows and what we are doing now for that?
    Mr. Weimer. Right. I think that was a grant program that 
was authorized in the 2002 bill. We helped push that through. 
It is a fairly small grant program that allows communities to 
hire technical expertise to help them understand pipeline 
issues. A lot of good stuff has come out of it.
    A lot of communities have upgraded their GIS [geographic 
information system] so that their public works people and their 
emergency responders actually understand where pipelines are in 
those communities; have done a lot of first responder training, 
Call Before You Dig training. It is allowed in particular 
communities to have a concern where you have a particular 
pipeline to hire an expert to come in.
    We recently did one of those in California in the East Bay 
area where a neighborhood association asked us to come in and 
look at it, and they had a very big concern with a particular 
pipeline owner. When we looked at it, we pointed out to them 
that particular pipeline probably was not as high a risk as 
they thought, but we pointed out some issues where local 
governments really needed to think about how they were training 
their emergency responders in school districts that had 
pipelines running right next to schools and had never thought 
about evacuation plans for that.
    So I think it has been a valuable program that helps build 
trust in pipeline safety.
    Mr. Larsen. Thanks.
    And, Ms. Dominguez, can you comment on the State program 
and what your plans are for that in this PHMSA 2021 plan?
    Ms. Dominguez. Well, the State program has been a very 
successful program. It is our way to actually work very 
directly with the States, and we want to make sure that not 
only that that continues to be a robust program where the State 
inspectors carry out, as was stated, the Federal requirements, 
but that it go above and beyond what any particular State 
requirements may be.
    We hope to continue to reinvest in that and make sure that 
it is just as robust moving forward.
    Mr. Larsen. Well, I appreciate hearing that as you are 
moving forward and reorganizing that that stays a major part of 
what you do.
    Ms. Dominguez. Absolutely.
    Mr. Larsen. Thank you.
    I yield back.
    Mr. Hanna [presiding]. Mr. Nolan.
    Mr. Nolan. Thank you, Mr. Chairman.
    And I want to thank the panel for being here. I 
particularly welcome Ms. Campbell from our great Minnesota-
based company and the great work that you do. We are very proud 
of that company and all of its performance standards and 
services that you provide. Thank you for being here.
    I want to bring to the attention of the committee as well 
as the panel something that has not been brought up. So I want 
to give the committee a little heads-up on it when we get 
around to the markup, and that is the Pipeline Jobs and Safety 
Act that I have introduced into the Congress here and want the 
committee to carefully consider and for a variety of reasons.
    First of all, what the bill would do, and I intend to offer 
it as an amendment if given the opportunity, is to require that 
steel tubular goods produced and used in the pipeline industry 
after the enactment of our reauthorization be required to be 
U.S. steel and made from products that are mined and processed, 
quite frankly here in the United States.
    I do so for several reasons. First is not necessarily in 
order of importance either, but one of them is the economics of 
it. We have 15,000 steelworkers in America that are on the 
bench and unemployed at this moment. They estimate for every 
one of them there is another six or seven people who are laid 
off. Grocery stores closed down and drug stores closed down and 
communities devastated and families devastated.
    By that standard there are probably at least 120,000 people 
who are suffering. Clearly it is in our national interest that 
they have a strong and viable steel industry for this country. 
Thirteen percent of the Nation's gross national product goes 
through the locks at the Soo Narrows, which gives Lake Superior 
access to the Great Lakes. They say that if that lock, for 
example, were devastated for one reason or another, 
obsolescence, which quite frankly is a possibility as it is 
greatly in need of repair, but they have Army protection there 
against war or acts of terrorism.
    They say if that lock for any reason, including the 
collapse of American mining and steel, were not there, it would 
throw the country into a great depression with 13 percent of 
the Nation's gross national product going through that.
    But of equal and great importance is the safety factor. In 
talking with the men and women who do the welding and do the 
construction of these pipelines, I know it is anecdotal, but 
they have attested time and time again to the superior quality 
of U.S. steel. I did some work myself in the pipeline industry 
in my youth, selling pipelines in the Middle East, and the 
smart ones all waned to use U.S. steel even though it was 
cheaper some other places, but because of the superior quality 
and the benefits that related to that with regard to production 
and safety.
    But I have also seen a number of studies where expert 
analysts, you know, have looked at U.S. steel and tubular goods 
in particular and compared them to the steel that is produced 
in some of these other countries, and clearly U.S. steel always 
ends up being superior.
    And then lastly, I have seen some studies and analysis that 
show that, well, imported steel and tubular goods in particular 
are required to meet U.S. standards. The fact is they are not 
inspected, and they are not regulated the way U.S. steel is in 
its production process.
    So there is an important safety factor here. Thirty percent 
of the steel that is being used in this country comes from 
foreign countries, that steel of an inferior quality, and so I 
want to just give everybody a heads-up on the importance of 
this and my intentions to pursue it, given the opportunity 
under the new regular order proceedings that Speaker Ryan is 
calling for, which of course calls for open rules and committee 
consideration of any and all things that emanate from this 
Congress of the United States.
    And I applaud Speaker Ryan for calling for the 
reestablishment of regular order. That is how we find common 
ground. That is where we come together. That is how we produce 
nonpartisan, bipartisan legislative efforts to fix things and 
get things done for this country.
    So thank you for the moment, and thank you for your 
testimony, and I look forward to working with the members of 
the committee and the industry and all the workers and people 
involved.
    Thank you very much.
    Mr. Denham [presiding]. Thank you, Mr. Nolan.
    I recognize Mr. Barletta for 5 minutes.
    Mr. Barletta. Thank you, Mr. Chairman.
    In my district and across the State of Pennsylvania we are 
rooted in the heart of the Marcellus shale. I have seen new 
access to cheap natural gas prices lower my constituents' 
heating and electricity bills, bring new manufacturing to our 
area, and save jobs at power plants that would have been shut 
down by the President's war on coal.
    During the height of the Marcellus shale boom, we had more 
than 1,000 wells drilled, but no way to move the gas to market. 
That is like being in college and having a keg of beer without 
a tap.
    [Laughter.]
    Mr. Barletta. Still energy costs in surrounding States 
remain high and have not been able to take advantage of the 
cheap energy in the Marcellus shale because of the lack of 
pipeline infrastructure.
    Now, in my district we have multiple pipelines in the 
process of being built, and this has raised my constituents' 
awareness of both the new and old pipelines in their 
communities.
    Ms. Campbell, you mentioned significant investment in 
repair and replacement programs that focus on updating the old 
cast-iron infrastructure. Can you explain the steps natural gas 
companies are taking to ensure that the pipeline infrastructure 
that is already in the ground is safe?
    Ms. Campbell. Certainly. It kind of comes in a lot of 
different categories. It depends on what service it is under, 
but effectively there is a pretty rigorous process of 
inspection. Transmission lines have a very prescriptive process 
that we go through to ensure that they are safe, and when you 
find an issue or problem, they are classified to be repaired 
immediately or during a certain time period.
    For our distribution systems, there are regular 
requirements for inspection, leak surveys, for instance, 
cathodic protection surveys, things of that nature, and again, 
pipeline companies' operators take action based on what they 
see.
    In a number of instances companies go above and beyond 
those minimum requirements. When you believe you have an issue 
or risk that needs to be addressed, we might, for instance, do 
additional surveys, leak surveys. We might proactively replace 
pipeline.
    We also, by the way, watch carefully what PHMSA puts out on 
its Web sites and watch what other companies are finding, 
lessons learned from other companies, and investigate our own 
infrastructure and determine whether or not we need to take 
proactive action based on the results of those other issues.
    Mr. Barletta. Thank you.
    Administrator, at a field hearing last September in 
Billings, Montana, on pipeline safety, you stated that PHMSA 
would issue a proposed rulemaking on the safety of natural gas 
transmission by the end of 2015. While that deadline was not 
met, I was glad to read in your testimony that you are moving 
forward with this rule and that it should be complete within a 
month, which I take it to mean March 25th, 2016; is that 
correct?
    Ms. Dominguez. We are working diligently on it, and I 
really do hope that it is out within the next few weeks, yes.
    Mr. Barletta. My constituents' energy companies and I, we 
all need these deadlines to be met and for PHMSA to issue its 
guidance so that we can be confident in the quality of our 
energy infrastructure safety.
    How are you prioritizing this and other rules in light of 
the action needed to respond to recent incidents, as well as 
the many new and ongoing pipeline projects in Pennsylvania and 
across the country?
    Ms. Dominguez. Thank you for the question.
    As I stated in my testimony, completing the requirements of 
the 2011 act are absolutely a priority for PHMSA. We are 
addressing some of the most significant ones first, including 
the hazardous liquid rule, which we have moved last fall, and 
now with the gas transmission rule we are doing the same.
    That said, there is always ongoing emerging risk that is 
identified in different ways. Just recently underground storage 
is clearly on the table now, given the incident in Aliso 
Canyon.
    So the bottom line is that PHMSA actually needs to not only 
be an agency that addresses risk. We actually need to be more 
forward-thinking and be able to identify some of these emerging 
trends before they actually occur, and part of the PHMSA 2021 
strategy is actually to make sure that we have those 
capabilities in place, we are able to move forward with some 
aggressive rulemaking and do it in a timely way.
    Mr. Barletta. For those of you in the private sector 
building infrastructure right now, have you made your long-term 
capital infrastructure plans absent the guidelines that have 
continually been delayed and when you do not know the 
regulatory challenges down the road?
    I am going to have to be quick because my time is expiring 
here.
    Mr. Santa. Might I respond to that, Mr. Barletta?
    Mr. Barletta. Sure.
    Mr. Santa. We are committed to our safety commitments and 
goal of zero incidents. By the same token I think there is some 
risk when you do not have the standards out there. For example, 
some of the testing that must be done is expensive. It requires 
taking pipelines out of service, and there is the risk that, 
for example, a pipeline company might test pursuant the 
voluntary program and then find out when PHMSA puts out the 
rules that it needs to repeat that because it did not quite 
meet it.
    So I think that having that certainty of knowing that what 
we are committed to do is consistent with what PHMSA will 
require of us in the rules I think will be very helpful.
    Mr. Denham. Thank you, Mr. Barletta.
    Ms. Hahn is recognized for 5 minutes.
    Ms. Hahn. Thank you, Chairman Denham, for holding this 
hearing.
    As the chairman knows and actually called for another 
hearing on an issue specifically related to my district in Los 
Angeles, we had a pipeline spill 2 years ago in Wilmington, a 
working class community near the Port of Los Angeles. Over 
1,000 gallons was spilled into this residential neighborhood.
    I remember running over there that morning of the spill and 
the smell was so nauseating, and then the residents had to deal 
with jackhammers tearing up the streets to locate the leak. 
Some people could not even get out of their houses because of 
the heavy equipment on a residential street to even go to work.
    At the time of the rupture there was confusion over the 
classification of the pipeline. Phillips 66 had classified this 
pipeline as idle, a category that apparently does not exist. 
When they bought the pipeline, they were told by the previous 
operator that it was empty.
    The State of California and PHMSA were told it was empty. 
So in 15 years it was never inspected. No one ever verified 
that the pipeline was empty, and my residents, of course, paid 
a price for that. I think that oil spill endangered the health 
and safety of many of my constituents as well as property 
damage.
    So I am reintroducing legislation today that will ensure 
that a company purchasing a pipeline does its due diligence and 
inspects the status of the pipelines they have purchased--I 
think it is reasonable to say within 180 days of the sale--but 
I believe there needs to be a third-party verification by 
either PHMSA or a State authority, and I hope, Chairman Denham, 
you will work with me as we reauthorize PHMSA to maybe include 
this in the legislation.
    The other thing that really upset me and my residents was 
at the end of the day Phillips was only fined $75,000 for this 
egregious act of misidentifying a pipeline, making up a 
category of idle, and causing enormous health and safety risk 
to my constituents.
    So, Administrator Dominguez, you know, I have been asking 
for better oversight of our pipelines. Can you share with us 
today how you believe PHMSA has improved pipeline oversight, 
particularly instances like this?
    Ms. Dominguez. Thank you for the question.
    I think that there were a lot of lessons learned as a 
result of the incident that occurred in your district. First 
and foremost, our regulations require, as you stated, there is 
not an idle pipeline. It is either operating or it is not 
operating, and the requirements need to be met for both of 
those incidents.
    So moving forward, you know, again, there were a lot of 
lessons that were learned and applied and how we can actually 
better work with operators.
    Ms. Hahn. How do we close that loophole, you know, without 
my legislation? How do we close the loophole of a company 
purchasing a pipeline and just sort of having the previous 
owner say it is empty?
    Ms. Dominguez. Well, there are requirements in place right 
now for how any operator actually uses their pipeline. So if it 
is not in, quote-unquote, current use, the bottom line is there 
are requirements for how it is supposed to be operating.
    So if it is not filled with a particular gas or liquid, 
there are requirements, especially in a liquid situation, for 
how it should be treated, and so----
    Ms. Hahn. And what is the verification of a purchased 
pipeline by a new operator? Is there a third party? Is it you? 
Is it the State? Who says whether or not everybody is telling 
the truth?
    Ms. Dominguez. I am not aware that there is a national 
verification process or not, but I would be happy to look at 
it.
    Ms. Hahn. Good. Thank you. Because I think that is what, 
you know, our constituents are hoping from the Federal 
Government, that we sort of have this third-party verification.
    You know, one of the other issues was particularly in 
Wilmington and very populated Los Angeles County, this is 
considered a high consequence area because there are so many 
underground pipelines running underneath the streets of this 
residential community, and last year I asked the Acting PHMSA 
Administrator about pipelines in these so-called high 
consequence areas.
    Do you know if we have made any progress to increase the 
safety in these high consequence areas besides just alerting 
them to evacuation procedures?
    Ms. Dominguez. Certainly in the hazardous liquid role we 
looked at how we actually address incidents of liquid in high 
consequence areas, but also as we move forward in the gas rule, 
we are also looking to identify opportunities that will look 
all kinds of consequences.
    Ms. Hahn. Thank you. Thank you very much.
    Thank you.
    Mr. Denham. Thank you, Ms. Hahn.
    Mr. Mica, you are recognized for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    I have a couple of questions, first for Ms. Dominguez.
    Recently API and AOPL released some new recommended 
practices for improving safety management systems. Did you 
participate in the development of those recommended practices?
    Ms. Dominguez. Yes, we did.
    Mr. Mica. You did?
    Ms. Dominguez. Absolutely.
    Mr. Mica. And maybe I could ask Mr. Black. Can you take a 
minute and maybe tell us the safety management systems; 
describe what you have recommended and how you think they will 
improve safety of pipelines?
    Mr. Black. This was an extraordinary effort done under the 
American Petroleum Institute, recommended by the National 
Transportation Safety Board to develop a safety management 
system program unique to pipelines. We worked with PHMSA. PHMSA 
staff participated at every step of the way. The NTSB had the 
opportunity to watch it as it moved. We brought State 
regulators along and also our companions in the gas 
transmission distribution sector.
    Mr. Mica. Tell me though specifically. OK. Everybody was 
cooperating.
    Mr. Black. Sure.
    Mr. Mica. Tell me specifically what safety recommendations, 
again, what we will see and what you expect the results to be.
    Mr. Black. Thank you, Congressman.
    It provides guidance to a company on how to manage safety 
efforts holistically across the company from line managers to 
line employees, middle managers to CEOs and how to continuously 
improve. It has got a continuous cycle of plan, do, check and 
adjust, and PHMSA has cheered us on. It has encouraged every 
pipeline operator to implement that.
    One of our major initiatives this year is to try to make 
every company aware of it and to educate them and encourage 
their implementation of this.
    Mr. Mica. And that is a voluntary compliance?
    Mr. Black. Yes.
    Mr. Mica. OK. PHMSA, I guess, has checked off, and you all 
are on the same page, and you feel that again, this will 
provide us a better measure of safety?
    Mr. Black. Well, we know that PHMSA is watching carefully. 
We know the NTSB said that this effort exceeded its 
expectation. PHMSA has said in settings that safety management 
systems require companies to go beyond prescriptive 
regulations, and the worst thing you could do right now is try 
to just somehow measure compliance with the safety management 
system.
    Mr. Mica. But the compliance is strictly voluntary. This is 
not mandated by PHMSA, is it?
    You have not incorporated this into your mandate?
    Ms. Dominguez. No, we have not, but I----
    Mr. Mica. You are using this as the new standard in 
evaluating on that basis and then what do you do? Write them up 
if they are not meeting the standard or what?
    Ms. Dominguez. What we have done is actually----
    Mr. Mica. Because the standard really is not something that 
you have. This is a voluntary new standard, right?
    Ms. Dominguez. It was a collaborative effort to develop a 
recommended practice.
    Mr. Mica. Should that be more codified in regulations or 
law or something?
    Ms. Dominguez. What I have said very directly and what we 
have proposed in our strategic framework is that moving to a 
safety management system is imperative for the industry. The 
work that has been done on the recommended practice is a great 
step forward in actually moving in that direction.
    Mr. Mica. But technically you have no ability to enforce 
the higher standards of this sort of agreed upon new standard, 
right?
    Ms. Dominguez. We have not said that we are actually 
looking to regulate in this area. The first step forward is 
actually to, first and foremost, educate everyone, industry, 
all of our stakeholders.
    Mr. Mica. Would you anticipate codifying in a regulation 
some of these?
    Ms. Dominguez. I would never take codification off the 
table, but I think that first and foremost we have seen in 
other transportation modes like aviation that voluntary 
compliance is actually one of the most integral parts of how we 
collect data voluntarily, have a third party look at it, 
identify risk, and that is actually what will reduce----
    Mr. Mica. And I support that. I think that industry working 
with Government regulatory agencies needs to cooperate. But, 
again, you want the highest standards. You also want those to 
be met, and if you agree on them, I am not sure if you develop 
some system to identify noncompliance with what they have 
agreed on.
    Just a last question. In the 2011 pipeline bill, and this 
might have been asked. I was not here. We put some provisions 
to accelerate the replacement of cast-iron pipes. This is for 
Chery Campbell. And I want to know how much progress we have 
made since 2011.
    Has that been mentioned here?
    Ms. Campbell. Off the top of my head, I cannot give you 
exact numbers.
    Mr. Mica. Can you check that and make it part of the 
record?
    Ms. Campbell. Absolutely.
    Mr. Mica. I would just like to say, you know, you pass a 
law. You put in some new standards, and then you want to see 
what the result is. We had some issues before and we tried to 
put improvements in and work with the industry to make those 
improvements, and some of that was replacement, I believe, of 
the cast-iron pipes, and if that could be made a part of the 
record I would appreciate it. Maybe you could respond back.
    Ms. Campbell. Absolutely, we can do that.
    [The information can be found on pages 130-133.]
    Mr. Mica. I yield back.
    Mr. Denham. Thank you, Mr. Mica.
    Ms. Esty, you are recognized for 5 minutes.
    Ms. Esty. Thank you, Chairman Denham and Ranking Member 
Capuano, for holding this hearing on the reauthorization of 
DOT's pipeline safety program.
    This is what happens when you have four hearings before 
noon. So I apologize.
    I want to thank my colleagues, too, from California for 
their appearing today and really underscoring the important 
role we all play in ensuring the safety of the American public.
    In Connecticut we know all too well the consequences that 
can happen from procedures not being followed. In 2010 we lost 
six workers with the explosion of a natural gas facility right 
as it was nearing completion.
    So we have important work to do, and I have seen the 
effects right in my own State.
    Safety is paramount when it comes to producing and 
transporting energy across the United States, and I too am 
frustrated as you have heard from others up here about the lack 
of progress in ensuring all of the criteria are being met in 
fulfilling the 2011 law. We need to be making forward progress 
in each and every one of those elements.
    And I hope that PHMSA and this committee can work together 
to improve pipeline safety in the United States so that we can 
avoid tragic accidents in the future.
    Before I get to my questions, I want to add my voice in 
support of ensuring that PHMSA has emergency order authority to 
protect public safety. It just makes no sense that you lack 
this authority, and as we have seen particularly with changes 
in the energy composition in this country, it is particularly 
important that you be accorded this authority, and I hope we 
can work together to ensure that that happens sooner than 
later.
    So, Administrator Dominguez, a couple of questions for you. 
In an October 2015 notice of proposed rulemaking, PHMSA 
indicated that it was considering whether to require emerging 
technologies to be considered when evaluating types of leak 
detection systems that are appropriate for a particular 
pipeline and that PHMSA will consider in its report to us to 
Congress on pipeline safety whether the use of specific leak 
detection technologies should be required.
    I would encourage PHMSA to address this issue in that 
report, and I would ask you whether you know whether PHMSA is 
going to be addressing this issue when writing the regulations, 
and specifically, will PHMSA be making specific recommendations 
about types of technologies to be used in certain 
circumstances?
    Ms. Dominguez. Thank you for the question.
    I believe you were referring to a rule. I believe it was 
the hazardous liquid rule. That is a proposed rulemaking that 
we issued in October of last year, which indeed required 
looking at leak detection systems for both new and existing 
hazardous liquid lines.
    So there is a provision in that notice of proposed 
rulemaking to do exactly that.
    Ms. Esty. That is a question that I know historically 
agencies understandably have been reluctant to specify 
particular technologies because the technologies change, but 
there are new technologies coming online that are vastly 
superior to what we have been using, and I guess the question 
is are you going to either be specifying new technologies or at 
least setting standards that are in accordance with what new 
technologies now allow us to achieve?
    Ms. Dominguez. I agree with you that there are emerging 
technologies constantly on the forefront of advancement. That 
said, one of the things that we are looking at as one of the 
mandates that is in the 2011 act is looking at how we best 
addressed leak detection, but a good portion of that is also on 
rupture detection to actually understand the sensitivity of any 
particular line.
    So as one, we have been investing very heavily in the R&D 
[research and development] on leak detection. About 10 percent 
of our overall R&D dollars that Congress has provided has gone 
to research in leak detection.
    Moving forward we want to make sure that we advance and 
continue to understand all of the technology that is emerging, 
and as we do so, we will look to regulate particularly on the 
areas that we think are very clear right now based on the data 
that we have in particular on rupture detection, and then we 
will move forward on leak detection.
    Ms. Esty. All right. Thank you very much. I think it is 
particularly important that we do support the R&D efforts, but 
continue to raise those standards, especially as we again are 
becoming more reliant on this for basic energy for so much of 
the country. It is important that we continue to raise those 
standards in accordance with what is going to best protect the 
American public.
    So please let us know if there is anything that we need to 
do on our end to ensure that we do not lock in stone a lower 
standard than is possible, and I guess that is part of my 
concern, that we lock ourselves into the past rather than 
moving forward in a safer direction.
    Thank you very much, and I yield back.
    Mr. Rokita [presiding]. I thank the gentlelady.
    I am Todd Rokita from Indiana, acting as chairman 
temporarily, and because of that I am going to recognize myself 
for 5 minutes.
    [Laughter.]
    Mr. Rokita. No, I was next in line, for the record.
    Thank you all for your comments today so far. I will start 
with Administrator Dominguez.
    Do you think that PHMSA has so many mandates, most given by 
Congress, that they have yet to meet that we should look at 
devolving actually more oversight and inspections to the 
States?
    I know that currently States have approximately 80 percent 
of intrastate pipeline inspections, but could that increase 
even more or have we reached the limit of State capacity?
    Ms. Dominguez. Thank you for the question, sir.
    I think the Congress has clearly recognized the need for 
Federal oversight of pipelines, and with the recent investment 
in the omnibus from a year ago we got 100 new pipeline 
inspector positions. We have been not only hiring very quickly, 
but training all of those new inspectors.
    As we do so, PHMSA runs a training and qualifications 
center out in Oklahoma City, and we are also training a number 
of the State inspectors. They really are our partners and help 
us do our job on a daily basis.
    Mr. Rokita. Thank you, but my question was to devolution. I 
mean, could they be doing more? Could we transfer more power to 
the State level instead of in your office?
    Ms. Dominguez. I think that there is definitely a very 
significant role for Federal oversight in this area and for the 
Feds to continue to work with our State partners as we move 
forward.
    Mr. Rokita. Right. I am not saying eliminate your 
authority, but should we give more to the States? Yes or no?
    Ms. Dominguez. I think that the balance that exists right 
now is a good balance.
    Mr. Rokita. OK. Administrator Dominguez, going now with 
your budget authority, $149 billion in fiscal year 2015, more 
than double the agency's budget in fiscal year 2006, what is 
that increase going towards?
    Ms. Dominguez. Primarily the inspectors that we just talked 
about.
    Mr. Rokita. OK.
    Ms. Dominguez. And looking at how we would train them and 
deploy them.
    Mr. Rokita. Are you able to hire enough inspectors?
    Ms. Dominguez. I will tell you that it has been an 
interesting process. So 6 months ago when I came onboard oil 
prices were through the roof and competition was steep with 
industry to hire people.
    That has changed, and we have been able to really bring 
some great people onboard, and we are able to reach our 91 
percent hiring at this point in time. We will get to 100 
percent here hopefully by the end of March.
    That said, I think, you know, the bottom line is the 
economy is constantly going to be changing, and we need to make 
sure that we are in a position regardless of what the economic 
state is to be able to bring people onboard to serve in these 
positions.
    Mr. Rokita. So to that end does your outreach strategy 
include--I am going to get parochial here for a minute--does it 
include Purdue University, one of the best engineering schools 
in the country?
    Ms. Dominguez. I am familiar with the Boilermakers.
    Mr. Rokita. OK. I would suggest I would be happy to 
facilitate a meeting if we are not applying. I think they would 
serve you well, and they would be thrilled to know that they 
have opportunities at your agency.
    Ms. Dominguez. I would be happy to work with you on that.
    Mr. Rokita. And to be even State inspectors to my previous 
question.
    Ms. Dominguez. I will tell you that I have had the 
opportunity in previous jobs to work with the engineering 
students from Purdue and, indeed, they do produce great folks.
    Mr. Rokita. Yes. So just a little seed for you there.
    And I do not know. Maybe you already are. It was just an 
open question. So honestly I am happy to help facilitate that.
    Mr. Black, continuing on with my parochialism, I guess, my 
Indiana constituents appreciate the importance of energy 
delivered by pipeline, gasoline and diesel for driving, propane 
for heating and drying, but my constituents also need to know 
that the pipelines are safe.
    What industrywide actions are pipeline operators taking to 
improve pipeline safety so I do not have to deal with this?
    Mr. Black. So liquid pipeline operators spent $2.2 billion 
in 2014, the last year we have collected data on managing the 
pipeline safety. So it is evaluating those pipelines, 
inspecting them, and doing repairs when necessary.
    We operate under a full series of PHMSA codes on the 
operation of a pipeline, title 49, 195.452 requires an 
extensive integrity management program where pipeline operators 
have to assess pipelines that could affect high consequence 
areas and review the inspection results and take actions by 
pipeline accordingly.
    So there is a full set of regulations and administrative 
activity to continue to improve pipeline safety.
    Mr. Rokita. Are you satisfied with the record?
    Mr. Black. Well, our goal is zero incidence, and we are 
never there. We are proud of the safety record now. We are the 
safest mode, but we are working to get better.
    Mr. Rokita. Thank you.
    I know I am over, but before going to Mr. Lipinski, let me 
ask one short question to close this out.
    Mr. Santa, do you feel PHMSA has the resources and 
authority to properly conduct safety checks on the lines or do 
you feel that we could be doing more? Is the industry taking 
steps to do any self-regulation?
    Mr. Santa. First, I believe PHMSA does have the resources 
that they need to do it, as has been noted. Their appropriation 
has gone up in recent years and is giving them that capability. 
Beyond compliance with the PHMSA rules like others have 
mentioned on this panel from the industry, our respective 
boards have adopted safety programs with the goal of zero 
incidence. We are pursuing those programs and getting out ahead 
of this.
    Mr. Rokita. I thank you all.
    Mr. Lipinski, you are recognized for 5 minutes.
    Mr. Lipinski. Thank you.
    I want to start off by thanking Chairman Denham and Ranking 
Member Capuano for holding the hearing today, and I look 
forward to moving ahead with the reauthorization of pipeline 
safety legislation.
    Illinois is a key pipeline hub for crude, natural gas and 
refined products, and certainly my district is home to many, 
many miles of pipeline, though my constituents really don't 
know that. Most people don't know that, understand that.
    Now, this means that they do not know how important these 
are, but unfortunately a 2011 spill in Romeoville highlighted 
that there are pipelines there and also highlighted that we 
need to have a greater focus, I believe, on safety and 
prevention.
    So I wanted to look at a couple of ways to do this. First I 
want to look at the use of drones. Rulemaking on leak detection 
standards is still in progress, I understand, but new 
technologies are emerging that could make proactive inspections 
more efficient and less costly for operators.
    I also serve on the Science, Space, and Technology 
Committee where we have examined the use of unmanned aerial 
systems. I am cochair of the Unmanned Systems Caucus here. So I 
am very interested in the use of these systems.
    At this subcommittee's April 2015 hearing, PHMSA testified 
that some companies are already using these systems, but I am 
aware that obtaining this section 333 exemption from the FAA 
can be a very lengthy process.
    So I want to ask a question. Let me just open this up to 
everyone here, but especially to Mr. Santa and Mr. Black. Do 
you think there is better opportunity for better collaboration 
between your industry, PHMSA, and the FAA to expedite the use 
of UAS for pipeline inspection?
    I also want to ask the Administrator that question if you 
think more can be done on this.
    Mr. Santa?
    Mr. Santa. Yes, Mr. Lipinski. As you note, a lot of the 
inspections of pipeline rights-of-way have been done by aerial 
inspection, and so certainly the ability to use unmanned 
vehicles to do that offers an opportunity. We, in fact, have 
talked to some vendors who have got some interesting 
technologies in terms of being able to really optimize that.
    In addition, remote sensing technologies can be valuable in 
terms of the types of studies that need to be done in 
connection with permitting for new pipelines. As a matter of 
fact, there is legislation pending before the Energy and 
Commerce Committee in terms of authorizing that and specifying 
to Federal agencies that they should accept that in terms of 
satisfying the requirements for surveys and inspections.
    So I think there is a lot of potential here to improve the 
effectiveness by the use of these vehicles, and we certainly 
would be interested in pursuing that.
    Mr. Black. You are absolutely right, Congressman. There are 
safety benefits that come from aerial patrols. Right now PHMSA 
regulations require operators to conduct aerial patrols, but 
now of course they are manned. We would be very interested in 
the ability to use unmanned aerial surveillance.
    Like you, I am aware that one of the issues in the FAA 
rulemaking is the requirement right now that an operator stay 
within a line of sight. For long linear infrastructure like 
pipelines, that is not practical. So we would need some changes 
to the FAA regulations on UAS to be able to use those vehicles 
to patrol a pipeline and we could accomplish great things.
    My understanding, if somebody is along that right-of-way 
getting ready to dig and did not call the one-call program, we 
would have that evidence.
    Mr. Lipinski. Is there anything you think could be done 
better to get this technology out there more quickly?
    Ms. Dominguez. We have been working not only with our 
partners at FAA, but across the board to look at any and all 
technologies that are available for leak detection and other 
inspection capabilities. So I would not take anything off the 
table, and I think there is opportunity moving forward.
    Mr. Lipinski. All right. If the chair will let me ask a 
second question I will try to make this as short as possible.
    I know that a big issue is excavation causing ruptures to 
pipelines. The last reauthorization directed PHMSA to 
collaborate with pipeline operators to collect geospatial data 
to improve the accuracy of National Pipeline Mapping Systems.
    So my two questions: do we have good mapping now?
    And let me just also throw this in there. Is there a 
possibility, and I know everyone has a smartphone; does this 
give us more of an opportunity to use this mobile technology 
rather than or in addition to the Call Before You Dig Program?
    Do you think that is a possibility to also have that 
opportunity to know where pipelines are before digging?
    Anyone? Mr. Black.
    Mr. Black. You said ``or'' or ``in addition to,'' and I 
think it is very important, Congressman, that any use of 
mapping to identify pipelines be ``in addition to'' the one-
call notification program. We do not want anybody to think that 
there is a reason not to call.
    If you call, there is a 99 percent chance that nobody is 
going to strike a pipeline. You cannot count on the mapping 
being as good as those utility locators who spray paint and put 
out those flags and really help you identify where to dig.
    Ms. Dominguez. I would have to say that it is critical, 
one, to make sure that the call is made for 811, but, two, as 
we move forward on the National Pipeline Mapping System, we 
have, indeed, opportunity to improve with more specificity some 
of the data that PHMSA presently collects and informs the NPMS 
system.
    So we are continuing to work on that and provide more data 
to that system, but first and foremost I think the first line 
of defense is 811, but we also need to make sure that people 
understand what's there and then appropriately share it, given 
security concerns, only when necessary.
    Mr. Lipinski. All right. Thank you very much.
    Mr. Rokita. I thank the gentleman. The gentleman's time has 
expired.
    We are going to have a one committee member round two. The 
gentlelady is recognized for 5 minutes.
    Ms. Hahn. Thank you, Mr. Chairman. I appreciate that.
    Just being, you know, a member of the L.A. County 
delegation here in Congress, I really felt it was incumbent on 
me to just ask a couple of questions about the Porter Ranch 
incident. While that is not in my particular congressional 
district, certainly in L.A. County it has been a huge problem.
    Mr. Weimer, I was just going to ask you a couple of 
questions about that, and I appreciate my colleagues, Congress 
Members Knight, Sherman and Speier, for coming and talking 
about the devastations in their own districts as it related to 
pipeline and gas storage issues.
    So, you know, Mr. Sherman has introduced a bill and so has 
Mr. Knight. Now, in Mr. Knight's bill, the PHMSA regulation 
would rely heavily on consensus standards, which in the case of 
underground gas storage refers to standards developed by the 
API.
    I know I am concerned about the way these standards were 
developed and whether they are truly the best practices or 
rather just an average practice of the industry.
    In your opinion are these practices just a ratification of 
the current average practice in the industry?
    Should they go further?
    And are consensus standards generated by the industry the 
best way to identify adequate safety measures?
    Mr. Weimer. Well, thank you for the question.
    Certainly underground gas storage is not something that we 
focused on much. We think that from what we have seen of the 
recommended practices that they would be a good first step. We 
think that it needs to go farther than that, and I think that 
is some of the difference in the language between the two 
congressional bills that have been introduced.
    So, you know, if there was a way maybe through emergency 
order authority that those standards could be implemented as 
soon as possible, that would be good, but we would like to see 
a regular rulemaking that would open it up so the public, 
academia, other folks could chime in and make sure it is as 
strong as possible.
    We have heard mention that there are concerns with the 
standards that are being pushed forward, that they do not 
include everything that needs to be.
    There are also some concerns about whether it precludes 
State authority based on whether such facilities end up being 
defined as interstate or intra because if they are defined as 
interstate, the States could be precluded from going above and 
beyond what the Feds----
    Ms. Hahn. Thank you.
    And my last question would be Mr. Sherman's bill included a 
State non-preemption clause so that States have the option of 
implementing standards more stringent than the Federal ones.
    Do you feel that States like California should have the 
option of requiring measures like shutoff valves, pressure 
monitors, testing of downhill devices if the Federal 
regulations fail to do so?
    Mr. Weimer. Absolutely.
    Ms. Hahn. OK. Thank you very much.
    And, Mr. Chairman, thank you for indulging me for my 
personal second round.
    Mr. Rokita. I appreciate the gentlewoman's questions.
    Thank you all for your testimony. I say that for the 
committee members and on behalf of Chairman Denham. Your 
comments have been very helpful for today's educational 
hearing.
    And seeing no further questions, I would ask unanimous 
consent that the record of today's hearing remain open until 
such time as our witnesses have provided answers to any 
questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony today. If no other Members have anything to add, this 
subcommittee stands adjourned.
    [Whereupon, at 12:02 p.m., the subcommittee was adjourned.]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
                           [all]
                           
                           
                           
</pre></body></html>
